Dr. Gregory J. Gonsalves
Gonsalves Law Firm
2216 Beacon Lane
Falls Church, VA 22043
571-419-7252

March 27, 2020

Supreme Court of the United States

Clerk’s Office

1 First Street, NE

Washington, DC 20543

Re: Request for 30-day extension of time to respond for Supreme Court Case No.:

19-966, Emerson Electric Co. v. SIPCO, LLC

Dear Sir or Madam,

On March 19, 2020, the Court asked SIPCO LLC to file a response to
Emerson Electric Co.’s petition for a writ of certiorari.

I respectfully request on behalf of SIPCO, LLC a 30-day extension to file
the response. Emerson does not oppose this request. The response is currently due
on April 20, 2020. With the extension, the response will be due on May 20, 2020.

The Clerk’s Office advised me to file the paper copy because although I
have submitted my application for admission to the Court, I have not yet been
admitted and therefore, do not have an account on the Court’s electronic filing
system.

The extension will give the Court time to process my application for
admission and will give me the time not only to prepare and file the response here
but also to prepare and file a brief at the Federal Circuit for another case, which is
due in April.

Sincerely,

y g 2
f. QA ~~ &

Dr. Gi J. Gonsal
r. Gregory J. Gonsalves RECEIVED

APR 1- 2020

   
   

:¢ Mr. Douglas Hallward-Driemeier, Ropes & Gray
